CREDIT CARD ACCOUNT OPENING
DISCLOSURE AND AGREEMENT
P.O. Box 638 - Altus, Oklahoma 73522

Borrower(s) Name and Address

Date

Account/Member Number
Credit Limit

Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
for Purchases
ANNUAL PERCENTAGE RATE
for Balance Transfers
ANNUAL PERCENTAGE RATE
for Cash Advances

Visa Platinum

_______%
_______%
14.75%

The APR will vary with market based on the Prime Rate.

17.00%
Penalty APR and When it Applies

This APR may be applied to your account if you:
Are 60 days late in making a payment
How Long Will the Penalty APR Apply? If your APR's are increased for any of these reasons, the
Penalty APR will apply until you make three (3) consecutive minimum payments when due.

How to Avoid Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest
on purchases if you pay your entire balance by the due date each month.

Minimum Interest Charge

None

For Credit Card Tips from
the Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website
of the Consumer Financial Protection Bureau at: http://www.consumerfinance.gov/learnmore

Fees
Annual Fee
Transaction Fees
Cash Advance
Foreign Transactions
Penalty Fees
Late Payment
Returned Payment Fee

None
$5.00 or 1.00%, whichever is greater
1% of each transaction in U.S. dollars
Up to $20.00
Up to $20.00

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new purchases)”.
Application of Penalty APR. Your APR may be increased to the disclosed Penalty APR if you are 60 days late in making a payment.
Late Payment Fee
$20.00 or the amount of the required minimum payment, whichever is less, if you are ten (10) days or more late in making a payment.
Returned Payment Fee
$20.00 or the amount of the required minimum payment, whichever is less.
Statement Copy Fee
$ 5.00
Rush Fee
$30.00
Emergency Card Replacement Fee
$30.00
Card Replacement Fee
$10.00
Visa Platinum
The Purchase APR is ________________________% which is a daily periodic rate of ________________________%.
The Balance Transfer APR is ________________________% which is a daily periodic rate of ________________________%.
The Cash Advance APR is 14.75% which is a daily periodic rate of 0.040411%.

Copyright 2011 ConmarSystems, Peachtree City, GA 30269 – EFORM 22018-2 Rev. 5/20

Page 1 of 3

CREDIT CARD AGREEMENT AND DISCLOSURE
This Agreement establishes the terms and conditions of your credit card agreement with
the Credit Union. In this agreement, the words “you” and “your” mean any person who
signs this agreement or who uses any card or other access device that may be issued in
connection with this Agreement "Card" means the Visa Platinum credit card and any
duplicates and renewals the Credit Union issues. "Account" means your Visa Platinum
credit card account with the Credit Union. "Credit Union," "we," "us," and "our" mean the
Credit Union. You must be a member of the Credit Union to apply for a credit card.
USING THE ACCOUNT: If you are approved for an account, the Credit Union will
establish a line of credit for you. By using the card for the first time, or authorizing another
person to use your account, you agree to and accept all of the terms and conditions in
this agreement. You agree that your credit limit is the maximum amount (purchases, cash
advances, balance transfers, plus “other charges”) which you will have outstanding on
your account at any time. Unless disclosed otherwise, the Credit Union will not allow
advances over the credit limit. If the Credit Union has a program whereby it allows
payment of advances that exceed your credit limit, the Credit Union will provide you with
notice, either orally, in writing, or electronically (notwithstanding the requirements of the
paragraph entitled “Statements and Notices”) explaining your right to opt in to the Credit
Union’s program whereby it will honor advance requests over the credit limit. In the event
you opt in to such a program, you agree to the terms of such a program. You may
request an increase in your credit limit only by a method acceptable to the Credit Union.
The Credit Union may increase or decrease your credit limit, refuse to make an advance
and/or terminate your account at any time for any reason not prohibited by law. If you are
permitted to obtain cash advances on your account, we may, from time to time, issue
convenience checks to you that may be drawn on your account. Convenience checks
may not be used to make a payment on your account balance. If you use a convenience
check, it will be posted to your account as a cash advance. We reserve the right to refuse
to pay a convenience check drawn on your account for any reason and such refusal shall
not constitute wrongful dishonor.
You may request that we stop the payment of a convenience check drawn on your
account. You agree to pay any fee imposed to stop a payment on a convenience check
issued on your account. You may make a stop payment request orally, if permitted, or in
writing. Your request must be made with sufficient time in advance of the presentment of
the check for payment to give us a reasonable opportunity to act on your request. In
addition, your request must accurately describe the check including the exact account
number, the payee, any check number that may be applicable, and the exact amount of
the check. If permitted, you may make a stop payment request orally but such a request
will expire after 14 days unless you confirm your request in writing within that time.
Written stop payment orders are effective only for six (6) months and may be renewed for
additional six month periods by requesting in writing that the stop payment order be
renewed. We are not required to notify you when a stop payment order expires. If we recredit your account after paying a check or draft over a valid and timely stop payment
order, you agree to sign a statement describing the dispute with the payee, to assign to
us all of your rights against the payee or other holders of the check or draft and to assist
us in any legal action. You agree to indemnify and hold us harmless from all costs and
expenses, including attorney’s fees, damages, or claims, related to our honoring your
stop payment request or in failing to stop payment of an item as a result of incorrect
information provided to us or the giving of inadequate time to act upon a stop payment
request.
RESPONSIBILITY: You promise to pay any and all charges incurred by you or by any
person whom you authorize to use the Credit Card issued to you, and any fees or
charges incurred in the recovery of a credit card, retrieval of transaction data, or
collection of this account in accordance with the terms and conditions issued by VISA
International, Inc. in accordance with the policies established by the Credit Union.
Your obligation to pay the amount owed on your account continues until paid in full even
though an agreement, divorce decree or other court judgment to which the Credit Union
is not a party may direct someone else to pay the account balance.
JOINT ACCOUNT: If more than one person applies for the card each is individually
responsible for all amounts owed on the account and is jointly and severally responsible
for all amounts owed. This means the Credit Union can enforce the Agreement against
any of you individually or all of you together. Each may obtain credit advances without the
knowledge of the other and both are obligated to repay all advances made to the
account. You agree to notify the Credit Union of any address change.
USING THE CARD: You may use the card issued to you to make purchases from
anyone who accepts VISA Credit Cards. You may also obtain cash advances from the
Credit Union, from other financial institutions participating in the VISA program and from
automated teller machines (ATM's) that provide access to the VISA system. Your VISA
Personal Identification Number (PIN) is needed to obtain cash advance from an ATM (not
all ATMs accept VISA Cards). You agree not to use the card for any illegal transactions
such as advances for gambling or wagering where these practices are in violation of the
law. Even if you use your card for an illegal transaction, you will be responsible for all
amounts and charges incurred in connection with the transaction.
PERSONAL IDENTIFICATION NUMBER (PIN): We will furnish you with a Personal
Identification Number (PIN). You agree to keep the PIN secret. You also agree you won't
write the PIN on the Card or anything you keep with the card. Your use of the PIN and Card
in making a purchase or obtaining a cash advance constitutes your agreement to be
responsible for all amounts and charges incurred in connection with such transactions.
FINANCE CHARGES. For purchase, cash advance, and balance transfer transactions
on your Account, the balances subject to a finance charge are identified on your monthly
statement as “Average Daily Balance” (including new purchases, new cash advances
and new balance transfers). The “Average Daily Balance” is determined as follows. Each
day we take the balance at the beginning of the day, add any new purchases, cash
advances, balance transfers, insurance premiums, and debit adjustments or other
charges, and subtract any payments, credits, unpaid finance charges, late charges, overthe-credit limit fees, and cash advance fees that are processed that day. This gives us
the “Daily Balance.” To get the “Average Daily Balance” for the billing cycle, we add up all
the Daily Balances for each calendar day of the billing cycle, and divide the total by the
number of days in the billing cycle. Purchase transactions posted to your Account during
the billing cycle period are included in the total only if the “New Balance” on your
previously assessed bill was not paid in full by the end of the grace period, as explained
below.
A finance charge will be imposed on Credit Purchases only if you elect not to pay the
entire New Balance shown on your monthly statement for the previous billing cycle within
25 days from the date of that statement. If you elect not to pay the entire New Balance
shown on your previous monthly statement within that 25 day period, a Finance Charge
will be imposed on the unpaid average daily balance of such Credit Purchases from the
Copyright 2011 ConmarSystems, Peachtree City, GA 30269 – EFORM 22018-2 Rev. 5/20

date of posting to your Account during the current billing cycle, and will continue to
accrue until the date of the billing cycle preceding the date on which the entire New
Balance is paid in full or until the date of payment if more than 25 days from the closing
date.
VARIABLE RATE. Your Account is subject to a Variable Rate which is based on the
highest Prime Rate as published in the Money Rates Section of the Wall Street Journal in
effect on the last day of each calendar quarter (“Index”) plus our Margin. The Index plus
the Margin equals the Interest Rate. Changes in the Index will cause changes in the
Interest Rate on the first day of the next billing cycle following the change (“Change
Date”). Increases or decreases in the Interest Rate will result in like increases or
decreases in the Finance Charge and will affect the amount of your regularly scheduled
payments that you will be required to make.
Purchases will be charged at ________________________________% above the index
Balance transfers will be charged at ___________________________% above the index
Cash Advances will be charged at ____________________________% above the index
Penalty rates will be charged at 13.75% above the index.
There is no limit on the amount by which the annual percentage rate can change on any
Change Date other than the maximum Annual Percentage Rate. The maximum ANNUAL
PERCENTAGE RATE that can apply is 18.00% or as set by law.
At the time of this agreement, your Account is subject to the following terms:
PENALTY APR: If your required minimum monthly payment is not received within 60
days after the due date for that payment, and after providing you with notice as required
by applicable law (the “Notice”), the Monthly Periodic Rate for your Account will increase
to .0466%, corresponding to an ANNUAL PERCENTAGE RATE of 17.00% (“Penalty
Rate”). The Penalty Rate will be applied to the outstanding balance of your Account as of
the effective date specified in the Notice. If the Credit Union receives three (3)
consecutive required minimum monthly payments on or before the payment due dates
beginning with the first payment due following the effective date of the increase, the
Credit Union will reduce the Annual Percentage Rate for your Account to the rate that
would have applied prior to the increase for transactions that occurred prior to or within
14 days after the Notice was provided. The Periodic and Annual Percentage Rates
applicable to other transactions will be as disclosed to you in the Notice.
OTHER CHARGES: The following other charges (fees) will be added to your Account, as
applicable:
a) Card Replacement Fee: You will be charged $10.00 for each replacement card
that is issued to you for any reason;
b) Emergency Card Replacement Fee: You will be charged $30.00 for each
emergency replacement card for any reason;
c) Statement Copy Fee: You will be charged a $5.00 fee for each copy of a
statement that you request (except when the request is made in connection with a
billing error made by the Credit Union);
d) Rush Fee: You will be charged $30.00 if you request a card faster than our normal
processing time;
e) Returned Payment Fee: You will be charged $20.00 or the amount of the
minimum payment, whichever is less.
LATE CHARGE: $20.00 or the amount of the required minimum payment, whichever is
less, if you are ten (10) or more days late in making a payment.
MONTHLY PAYMENTS: Each payment you make on the account will restore your credit
limit by the amount of the payment that is applied to the outstanding principal of the
purchases, cash advance and balance transfer features of your account. At any time, if
your total new balance exceeds your credit limit, you must immediately pay the amount
that exceeds your credit limit.
A PAYMENT IS REQUIRED EACH MONTH: You must pay at least the minimum
payment shown on your statement by the date specified on your monthly statement. You
can repay any outstanding balance prior to maturity in whole or in part at your option without
penalty. Your monthly payment must be made directly to the address shown on your
statement. If available, you may have your minimum payment automatically deducted from
your checking or savings account.
The minimum periodic payment required for your Visa Platinum Account will be 2.00% of
your total new balance or $20.00, whichever is greater, unless your outstanding balance
is less than $20.00, in which case your minimum payment will be your outstanding
balance. Any portion of minimum payments shown on prior statements which remain
unpaid, any amounts by which you exceed your credit limit, and any other applicable
charges will also be added to your required minimum monthly payment.
Subject to applicable law, payments will be applied in the following order or in any manner
the credit union chooses. First to any previously billed and unpaid Finance Charges on
purchases, cash advances and balance transfers, then to any billed fees, then to the
principal balance of purchases in the order they were posted to your account and then to the
principal balance of cash advances. However, in every case, in the event you make a
payment in excess of the required minimum periodic payment, the Credit Union will allocate
the excess amount first to the balance with the highest annual percentage rate and any
remaining portion to the other balances in descending order based on applicable annual
percentage rate. If two or more purchases were posted on the same day, your payment will
be applied to the lowest amount first. You understand that any payment that delays the
repayment of Your unpaid balance will increase Your Finance Charge and any payment that
accelerates the reduction of Your unpaid balance will decrease Your Finance Charges.
CREDIT BALANCES: If there is a credit balance due you, you may request in writing a
full refund of this credit balance at our address shown in this Agreement.
SECURITY: You grant us a security interest under the Uniform Commercial Code and
under any common law rights the Credit Union may have in any goods you purchase. If you
give the Credit Union a specific pledge of shares by signing a separate pledge of shares,
your pledged shares will secure your account. You may not withdraw amounts that have
been specifically pledged to secure your account until the Credit Union agrees to release all
or part of the pledged amount.
CONSENSUAL SECURITY INTEREST. To secure repayment of amounts you owe
on your Account, you give the Credit Union a consensual security interest in all
other shares you have in any individual or joint accounts you have with the Credit
Union, now and in the future (other than those accounts that would have an
adverse tax consequence if pledged as collateral). These other shares may be
withdrawn unless you are in default under this agreement. You authorize the
Credit Union to apply the balance in your individual or joint share accounts to pay
any amounts due on your Account if you should default.

Page 2 of 3

CROSS-COLLATERAL: If you have other loans with us, or take out other loans with us
in the future, collateral securing those loans (other than household goods or any dwelling)
will also secure your obligations under this Agreement if those other agreements indicate
that they may secure other obligations you may have with us.
DEFAULT: You will be in default: (1) if you fail to make any minimum payment or other
required payment by the date that it is due, (2) if you break any promise you make under
this Agreement, (3) if you die, file for bankruptcy or become insolvent, that is, unable to
pay your obligations when they become due, (4) if any attachment or garnishment
proceedings are initiated against you or your property, (5) if you default on any other
indebtedness to the Credit Union, (6) if you make any false or misleading statement in
any credit application or credit update, (7) if something happens that the Credit Union
believes may substantially reduce your ability to repay what you owe.
When you are in default, the Credit Union has the right to demand immediate
payment of your full account balance without notice. If immediate payment is
demanded, you will continue to pay Finance Charges, at the periodic rate charged
before default, until what you owe has been paid, and any shares that were given
as security will be applied towards what you owe.
If collections efforts are required by the Credit Union, you agree to pay all costs and
expenses incurred in the collection of any sum due, and in addition, if the holder hereof,
after default, shall place this Agreement in the hands of an attorney or collection agency, for
collection, to pay reasonable attorneys’ fees, interest and fees due on this Agreement at the
time of the employment of such attorney or collection agency.
CREDIT INFORMATION: You understand that the Credit Union will review your accounts
periodically, and you hereby give your permission to and authorize the Credit Union to
investigate and reassess your creditworthiness. You authorize the Credit Union to obtain
information concerning your credit history from all available sources now and in the future.
You authorize the Credit Union to disclose information regarding your account to credit
bureaus and creditors who inquire about your credit standing.
LIABILITY FOR UNAUTHORIZED USE/LOSS OR THEFT: If you notice the loss or theft of
your credit card or a possible unauthorized use of your card, you should write to us
immediately at 2721 N Main Street, PO Box 638, Altus, OK 73522, or call us at (800) 4424757 twenty-four (24) hours a day, seven (7) days a week. You will not be liable for any
unauthorized use that occurs after you notify us. You may, however, be liable for
unauthorized use that occurs before your notice to us. In any case, your liability will not
exceed $50.00.
MERCHANT DISPUTES: The Credit Union is not responsible for the refusal of any
merchant or financial institution to honor the card. Please refer to the section titled “Your
Billing Rights” for more information
RETURNS AND ADJUSTMENTS: Merchants and others who honor your card may give
credit for returns or adjustments, and they will do so by sending the Credit Union a credit
slip which will be posted to your account. If your credits and payments exceed what you
owe the Credit Union, the amount will be applied against future purchases and cash
advances. If the credit balance amount is $1.00 or more, it will be refunded upon your
written request or automatically after six (6) months.
CHANGING OR TERMINATING YOUR ACCOUNT: You agree that the Credit Union may
change the terms of this Agreement from time to time after giving you any advance notice
required by law at your last known address. To the extent the law permits, and indicated in
the notice to you, the change will apply to your existing account balance as well as to future
transactions. Your use of the card after receiving notice or a change will also indicate your
agreement to the change.
You may request an increase in your credit limit either by written application or by phone.
The Credit Union has the right to reduce or terminate your credit limit at any time. You
understand and acknowledge that such action shall not affect your obligation to pay any
outstanding balance PLUS any finance and other charges you owe under this Agreement.
Accounts that have been inactive for one (1) year may be subject to termination at the
renewal date. The card(s) you receive remain the property of the Credit Union and you must
recover and surrender to the Credit Union ALL cards upon request or upon termination of
this Agreement whether by you or the Credit Union.
CHANGING OR TERMINATING AUTHORIZED USERS: Upon your request, we may
issue additional cards for authorized users that you designate. You must notify us in
writing of any termination of an authorized user’s rights to access your account. Your
letter must include the name of the authorized user and your account number and/or any
subaccount number issued of the authorized user along with the authorized user’s card
and any convenience or other access checks issued to the authorized user. If you
cannot return the authorized user’s card or access checks and if you request our account
to be closed, we will close your account and you may apply for a new account.
ADDITIONAL BENEFITS/CARD ENHANCEMENTS: The Credit Union may from time to
time offer additional services to your account, such as travel accident insurance, at no
additional cost to you. You understand that the Credit Union is not obligated to offer such
services and may withdraw or change them at any time.
FOREIGN TRANSACTIONS: Purchases and cash advances made in foreign currencies
will be debited from your account in U.S. dollars. The currency conversion rate used to
determine the transaction amount in US dollars is either a rate selected by VISA from the
range of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate VISA itself receives, or the
government-mandated rate in effect for the applicable central processing date, plus 1
percent of the transaction amount, which may be billed separately on your account or
included in the transaction amount. This 1% adjustment is made for all international
transactions regardless of whether there is a currency conversion associated with the
transaction. The conversion rate in effect on the processing date may differ from the rate
in effect on the transaction date or posting date.
EFFECT OF AGREEMENT/WAIVER: This Agreement is the contract which applies to all
transactions on your account even though the sales, cash advances, credit or other slips you
sign or receive may contain different terms. The Credit Union can delay enforcing any of its
rights any number of times without losing them. Each provision of this agreement must be
considered as part of the total agreement and cannot in any way be severed from it. However,
you also agree that should any part of this agreement be found invalid, it will in no way affect
the remainder of the agreement.

Copyright 2011 ConmarSystems, Peachtree City, GA 30269 – EFORM 22018-2 Rev. 5/20

STATEMENT AND NOTICES: You will receive a statement each month showing
transactions on your account. You are responsible for your minimum monthly payment even
in the event your statement is late or returned to the Credit Union. Statements and notices
will be mailed to you at the most recent address you have given the Credit Union. Notice to
any one of you will be considered notice to all.
GOVERNING LAW: Except to the extent that Federal Law is applicable, the laws of the
state in which this document is written shall govern the validity, construction and
enforcement of this Agreement and all matters arising out of the issuance and use of the
Card.

Your Billing Rights: Keep This Document For Future Use

This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Red River Federal Credit Union
2721 N Main Street P O Box 638,
Altus, OK 73522
You may also contact us on the Web: www.redriverfcu.com
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to
stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing [or electronically]. You may call us,
but if you do we are not required to investigate any potential errors and you may have to
pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter.
We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain
why we believe the bill was correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that
amount.
• The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement of
the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent, and we
must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit
card, and you have tried in good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do not
qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact
us in writing [or electronically] at:
Red River Federal Credit Union
2721 N Main Street P O Box 638
Altus, OK 73522
www.redriverfcu.com
While we investigate, the same rules apply to the disputed amount as discussed above.
After we finish our investigation, we will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report you as delinquent.

Page 3 of 3

